Exhibit 1
Mark Joseph Derrico v. The State of Georgia, S19A0665, 831 S.E.2d 794
(August 5, 2019).

In the Supreme Court of Georgia

Decided: August 5, 2019
S19A0665. DERRICO v. THE STATE.
BENHAM, Justice.
Appellant Mark Derrico was convicted of aggressive driving,
reckless conduct, and failure to signal lane change or turn in
connection with a road rage incident. Derrico has raised several
challenges on appeal, including constitutional challenges. For the
reasons that follow, we affirm.
Viewed in the light most favorable to the jury’s verdicts, the
evidence presented at trial showed the following. On August 29,
2014, Derrico was involved in a road rage incident with Felix
Ambrosetti while driving northbound on Georgia State Route 400 in
Forsyth County.

Timothy Inglis – an independent witness –

observed the events and called 911. Inglis testified that he saw
Ambrosetti merge onto Georgia 400 and then proceed to cross all the

way to the left lane in front of Derrico. Inglis then observed Derrico
attempt to overtake Ambrosetti by passing him in the right lane.
However, while heading back into the left lane, Derrico struck
Ambrosetti’s vehicle on the passenger side. Next, Derrico slowed
down, went behind Ambrosetti’s vehicle, then entered the
emergency lane and struck Ambrosetti’s vehicle on the driver side.
After that, both vehicles pulled off the road.

Inglis said that

Ambrosetti maintained his lane throughout the incident and further
testified that he believed Derrico was angry and overreacted to
Ambrosetti’s merging.
Deputy Day of the Forsyth County Sheriff’s Office responded
to the scene and spoke with both Derrico and Ambrosetti on the day
of the incident. Deputy Day cited Derrico for aggressive driving,
reckless conduct, and improper lane change.
1. Derrico argues that the evidence presented was insufficient
to convict him of aggressive driving under OCGA § 40-6-397,1
OCGA § 40-6-397 (a) provides in relevant part that“[a] person commits the
offense of aggressive driving when he or she operates any motor vehicle with

1

2

reckless conduct under OCGA § 16-5-60,2 and failure to signal a lane
change or turn under OCGA 40-6-123 (a) 3 because he testified that
he was innocent and that Ambrosetti was the aggressor. However,
when we review a challenge to the sufficiency of the evidence, we
view the evidence in the light most favorable to the jury’s verdict
and defer to the jury’s assessment of the weight and credibility of
the evidence. See Jackson v. Virginia, 443 U. S. 307 (III) (B) (99 SCt
2781, 61 LE2d 560) (1979). The evidence, as set forth above, was
sufficient to authorize a reasonable jury to find Derrico guilty
beyond a reasonable doubt of the offenses for which he was charged.

the intent to . . . intimidate . . . another person, including without limitation
violating [Code Sections listed] with such intent.”
OCGA § 16-5-60 (b) provides:
A person who causes bodily harm to or endangers the bodily safety
of another person by consciously disregarding a substantial and
unjustifiable risk that his act or omission will cause harm or
endanger the safety of the other person and the disregard
constitutes a gross deviation from the standard of care which a
reasonable person would exercise in the situation is guilty of a
misdemeanor.
2

OCGA § 40-6-123 (a) provides in relevant part that “[n]o person shall
. . . change lanes or move right or left upon a roadway unless and until such
movement can be made with reasonable safety.”
3

3

See id. 4
2. Derrico also argues that OCGA §§ 40-6-397 and 16-5-60 are
unconstitutionally vague as applied to him.
It is well established that the void for vagueness doctrine
of the due process clause requires that a challenged
statute or ordinance give a person of ordinary intelligence
fair warning that specific conduct is forbidden or
mandated and provide sufficient specificity so as not to
encourage arbitrary and discriminatory enforcement.
(Punctuation and citation omitted.) Major v. State, 301 Ga. 147, 152
(800 SE2d 348) (2017). “Where, as here, the challenged statute[s]
do[] not involve First Amendment freedoms, [they are] examined in
light of the facts of the case at hand.” (Citation omitted.) Baker v.
State, 280 Ga. 822, 823 (633 SE2d 541) (2006). “Our construction of
[these statutes] is consistent with this Court’s duty to construe []
statute[s] in a manner which upholds [them] as constitutional, if

Derrico also contends that the trial court should have granted his
motions for directed verdict and new trial because the State failed to prove
guilt beyond a reasonable doubt. However, as stated above, the evidence
presented was sufficient to find Derrico guilty beyond a reasonable doubt and
the trial court did not err by denying Derrico’s motions. See Moore v. State, __
Ga. __ n. 4 Case No. S19A0985 (decided August 5, 2019); Thompson v. State,
302 Ga. 533 (II) (807 SE2d 899) (2017); Slaton v. State, 296 Ga. 122 (2) (765
SE2d 332) (2014); Jackson, 443 U. S. 307 (III) (B).
4

4

that is possible.” (Punctuation and citation omitted.) State v. Cohen,
302 Ga. 616, 623 (807 SE2d 861) (2017).
(a)

Derrico

contends

that

OCGA

§ 40-6-397

is

unconstitutionally vague because the statute contains an openended list of violations and the aggressive driving count in his
indictment does not include a reference to any of the statutes listed
therein. 5 Derrico also claims that he was arbitrarily selected for
prosecution instead of Ambrosetti.
However, we cannot say OCGA § 40-6-397 does not give a
person of ordinary intelligence fair warning that Derrico’s conduct
— particularly, moving into the emergency lane to then strike
Ambrosetti’s car a second time — is prohibited as an attempt to
intimidate someone, which violates the plain language of the
statute. See OCGA § 40-6-397 (a); Major, 301 Ga. at 152. Derrico’s
claim of selective prosecution also fails as he has not even attempted

Count 1 provides in relevant part “[Derrico] did unlawfully operate [a] motor
vehicle . . . with the intent to intimidate Felix Ambrosetti . . . in that [Derrico]
did move into Felix Ambrosetti’s lane, striking the vehicle Felix Ambrosetti
was driving, in violation of OCGA § 40-6-397.”

5

5

“to show that his prosecution represent[ed] an intentional and
purposeful discrimination which [was] deliberately based upon an
unjustifiable standard, such as race, religion, or other arbitrary
classification.” Wallace v. State, 299 Ga. 672, 674 (791 SE2d 836)
(2016).
(b)

Derrico

argues

that

OCGA

§ 16-5-60

(b)

is

unconstitutionally vague as applied to him because he was a victim
of Ambrosetti’s road rage and dealt with the situation as best he
could and that it was arbitrary whether he or Ambrosetti would be
prosecuted. However, there was testimony that Derrico was the
aggressor and struck Ambrosetti’s vehicle twice while in traffic. A
person of ordinary intelligence would appreciate the risk from
intentionally using one’s vehicle to strike another vehicle at highway
speeds around other motorists, and therefore would have fair notice
such conduct would violate the statute. See Horowitz v. State, 243
Ga. 441 (254 SE2d 828) (1979) (finding the statue was sufficiently
definite to give fair notice that speeding in a residential
neighborhood constituted reckless conduct). Accordingly, we affirm
6

the trial court’s decision that OCGA § 16-5-60 (b) is not
unconstitutionally vague when applied to the facts of this case.
3. Derrico next argues that the trial court erred by failing to
admit the entirety of Ambrosetti’s driving history into evidence.
Derrico contends the omitted portions were relevant to show that
Ambrosetti would have had cause to lie about the incident because
he had several prior interactions with law enforcement concerning
traffic offenses.

Questions of relevance are within the sound

discretion of the trial court, and absent a clear abuse of discretion, a
court’s decision to exclude evidence on the grounds of a lack of
relevance will not be disturbed on appeal. See Anglin v. State, 302
Ga. 333 (2) (806 SE2d 573) (2017).
The trial court admitted Ambrosetti’s driving history pursuant
to OCGA § 24-8-803 (8); however, the court found certain portions of
the document irrelevant, limited Derrico’s cross-examination of
Ambrosetti, and did not send the document out with the jury. Even
if the trial court abused its discretion when it limited Derrico’s crossexamination of Ambrosetti, Derrico was still able to cross-examine
7

Ambrosetti about two other accidents Ambrosetti admitted he
caused since 2008. Further, an independent witness testified that
Derrico was the aggressor during the incident. Accordingly, any
error would be harmless. See Adkins v. State, 301 Ga. 153, 158 (3)
(a) (800 SE2d 341) (2017) (stating that “[a] nonconstitutional error
is harmless if it is highly probable that the error did not contribute
to the verdict”).
Judgment affirmed. All the Justices concur.

8

